<html>
<title> - UNION SALTING OF SMALL BUSINESS WORKSITES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                                                   S. Hrg. 102-000 deg.

               UNION SALTING OF SMALL BUSINESS WORKSITES

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT & GOVERNMENT PROGRAMS

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                   WASHINGTON, DC, FEBRUARY 26, 2004

                               __________

                           Serial No. 108-55

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-197                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
PATRICK J. TOOMEY, Pennsylvania      FRANK BALLANCE, North Carolina
JIM DeMINT, South Carolina           ENI FALEOMAVAEGA, American Samoa
SAM GRAVES, Missouri                 DONNA CHRISTENSEN, Virgin Islands
EDWARD SCHROCK, Virginia             DANNY DAVIS, Illinois
TODD AKIN, Missouri                  GRACE NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  ANIBAL ACEVEDO-VILA, Puerto Rico
BILL SHUSTER, Pennsylvania           ED CASE, Hawaii
MARILYN MUSGRAVE, Colorado           MADELEINE BORDALLO, Guam
TRENT FRANKS, Arizona                DENISE MAJETTE, Georgia
JIM GERLACH, Pennsylvania            JIM MARSHALL, Georgia
JEB BRADLEY, New Hampshire           MICHAEL MICHAUD, Maine
BOB BEAUPREZ, Colorado               LINDA SANCHEZ, California
CHRIS CHOCOLA, Indiana               BRAD MILLER, North Carolina
STEVE KING, Iowa                     [VACANCY]
THADDEUS McCOTTER, Michigan

         J. Matthew Szymanski, Chief of Staff and Chief Counsel

                     Phil Eskeland, Policy Director

                  Michael Day, Minority Staff Director

     SUBCOMMITTEE ON WORKFORCE, EMPOWERMENT AND GOVERNMENT PROGRAMS

TODD AKIN, Missouri, Chairman        TOM UDALL, New Mexico
JIM DeMINT, South Carolina           DANNY DAVIS, Illinois
SHELLEY MOORE CAPITO, West Virginia  GRACE NAPOLITANO, California
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
CHRIS CHOCOLA, Indiana               MADELEINE BORDALLO, Guam
STEVE KING, Iowa                     [VACANCY]
THADDEUS McCOTTER, Michigan

                     Tom Bezas, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
DeMint, Hon. Jim, U.S. House of Representatives (SC-4)...........     3
Jacob, Mr. Clyde H., III, Jones Walker...........................     7
Krause, Mr. Jason, Brubacher Excavating..........................     9
Newman, Mr. Jonathan D., Building and Construction Trades 
  Department, AFL-CIO............................................    10
Cloninger, Mrs. Carol, Construction Electric, Inc................    13
Cloninger, Mr. Leonard, Construction Electric, Inc...............    14
Mix, Mr. Mark, National Right to Work............................    15

                                Appendix

Opening statements:
    Akin, Hon. W. Todd...........................................    31
Prepared statements:
    DeMint, Hon. Jim, U.S. House of Representatives (SC-4).......    37
    Jacob, Mr. Clyde H., III, Jones Walker.......................    40
    Krause, Mr. Jason, Brubacher Excavating......................    48
    Newman, Mr. Jonathan D., Building and Construction Trades 
      Department, AFL-CIO........................................    54
    Cloninger, Mr Leonard and Mrs. Carol, Construction Electric, 
      Inc........................................................    78
    Mix, Mr. Mark, National Right to Work........................    81

                                 (iii)
      


 
               UNION SALTING OF SMALL BUSINESS WORKSITES

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                  House of Representatives,
        Subcomittee on Workforce, Empowerment, and 
                                Government Programs
                                Committee on Small Business
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:40 a.m. in Room 
2360, Rayburn House Office Building, Hon. Todd Akin presiding.
    Present: Representatives Akin, DeMint, Udall.
    Chairman Akin. I now call this hearing of the Subcomittee 
on Workforce Empowerment and Government Programs to order.
    I am going to read a statement to begin with, and then I 
believe we will probably go directly to the witness.
    Good morning, and thank you for coming to our Subcomittee's 
first hearing of the 108th Congress, second sessions. For the 
first hearing of the year I wanted to choose something very 
significant, something very close to small business owners.
    When the issue of salting was chosen for this hearing, I 
had no idea just how significant it was. Salting, for those of 
you who don't know, is the act of deliberately inserting a 
union member, or salt, into a not-yet-unionized company. This 
salt applies for a position on the worksite, sometimes coming 
forth as a union member during his or her application process, 
and sometimes leaving that fact off.
    This plant, or salt, seeks a position on the worksite in 
order to establish a wellspring of support for the union 
effort, eventually unionizing or organizing that non-union 
company. This salt is often a member of a local union being 
paid by that union for his or her services.
    Employees often do not know that their new co-worker is 
also a paid union organizer, and like all salesmen, this new 
co-worker of theirs will collect a fee on selling these 
unsuspecting workers on the idea of unionizing.
    A salt is often sent in after an honest, forthright attempt 
to unionize has already failed.
    When an employer is confronted by one of these salts, he is 
put in a lose/lose position. If he does not hire the applicant, 
the applicant and his union can run to the National Labor 
Relations Board and file charges of unfair hiring practices. 
These charges often lead to long and dragged-out costly 
litigation, which the national unions have plenty of money to 
support, but small businesses are not equipped for.
    With us today are Mr. and Mrs. Cloninger. They will be able 
to tell us their story, which illustrates exactly what I have 
explained. Mr. and Mrs. Cloninger should be commended, as well 
as the other members who have come forth today. Many have not.
    My staff and the staff of related organizations contacted 
many people to participate in today's hearing. Most people were 
frightened to give testimony. American citizens were frightened 
to take advantage of their God-given right to speak the truth 
of what had happened to them.
    Why? Why were people so frightened that they declined to 
appear before the United States Congress?
    Actually, they had good reason. It appears that there is 
something to this salting, for when these people have spoken up 
before, they have experienced just how vital salting is to the 
unions. People we have been in contact with told us stories of 
receiving numerous death threats, having loved ones threatened, 
and even being run off the road.
    Now, I have spent my time dealing with unions before. For 
years I served in the Missouri State Legislature, and in my 
time there, I had my share of dealing with unions and their 
tactics. I know what kinds of threats people are capable of, 
and understand the concerns and fears of these business owners. 
Even members of public office are not above the threats of 
people who would intimidate us.
    It is for this reason and many others that I applaud my 
friend, Congressman Jim DeMint, for proposing this piece of 
legislation, entitled ``Truth in Employment Act of 2003.'' That 
is House Resolution 1793.
    I would like to thank you, Congressman, for coming to this 
hearing today and speaking to us about this legislation.
    Because of the fact that we have Congressman Toomey here, 
also, I would recognize Congressman Toomey, if you would like 
to make a comment.
    [Chairman Akin's statement may be found in the appendix.]
    Mr. Toomey. Thank you, Mr. Chairman. And I would just add 
very briefly that I am very eager to hear and read the 
testimony of our witnesses today.
    This strikes me as a disturbing practice, the salting 
practice. It strikes me that way for a variety of reasons, but 
one of which is that it seems to me--and we will learn better 
today, I hope--but it seems to me that it is often founded upon 
a fundamental deceit, a deceit in which an individual 
approaches a company with the pretense that he or she is there 
to work, to get paid for his work, and to go home when his work 
is finished. But in fact, the individual is there with a very 
different agenda, which is not consistent with that, and which 
is information withheld from the employer, and from his fellow 
workers. And I think it ought to be troubling whenever any 
systematic effort is undertaken that is founded upon deceit.
    So I am looking forward to learning whether or not that is 
true. And I would certainly like to learn whether, and to what 
extent, individuals are actually frightened or intimidated 
about simply telling the truth and testifying in public. There 
is absolutely no place for intimidation in public discourse. So 
I hope to learn that that is not the case. But in any case, I 
am going to be sitting here with open ears to find out.
    So thank you very much for having this hearing. And I 
welcome my colleague, and commend him for his legislation.
    Chairman Akin. Thank you very much, Congressman Toomey. I 
appreciate having you, and also Congressman DeMint. It has been 
just such a pleasure serving with both of you gentlemen. And I 
don't want to take any more time; I would like to give you as 
much time as you need, Congressman, to explain your 
legislation, and make your opening statement.

     STATEMENT OF THE HONORABLE JIM DeMINT, U.S. HOUSE OF 
                    REPRESENTATIVES, (SC-4)

    Mr. DeMint. Thank you, Mr. Chairman and Congressman Toomey. 
I appreciate the opportunity to review the details of this 
bill, and I particularly appreciate the Subcomittee's interest 
in the issue.
    And I am here today to speak about House Resolution 1793, 
which we call the Truth in Employment Act. It is a bill I 
introduced last summer to stem the harm being done now to 
companies by salting, which you have explained. It is a union 
tactic that is causing material economic damage to small 
businesses every day in this country.
    At the outset, if I could add to some of the definition, 
Mr. Chairman, that you mentioned about the definition of 
salting. While union supporters and the National Labor Review 
Board have defined the term as placing of union members on non-
union job sites for the purpose of organizing, it has been 
widely documented that the true motivation of many salts is 
simply to increase the cost of doing business for non-union 
contractors, regardless of the wishes of the employer's 
bonafide employees.
    Salting is much more than someone seeking employment for 
the purpose of union organizing. It is repeated attempts to 
interfere with business operations, harass employees, and cause 
economic harm through illegal actions and frivolous legal 
complaints against employers.
    Union organizers who fail to convince employees to organize 
will use salting to shut down non-union companies, often going 
to extreme lengths, including preventing deliveries to job 
sites and destroying building materials.
    In my own state of South Carolina, salting has resulted in 
the loss of hundreds of jobs. In Sumter, South Carolina, Yuasa 
Exide battery plant was targeted by the IUE CWA union. Union 
salts infiltrated the plant, and when employees there did not 
unionize, the union retaliated by sabotaging product, causing 
work slow-downs, making verbal threats and threatening phone 
calls, and putting nails in people's tires.
    Union leaders threatened to shut down the plant, and that 
is exactly what they did. Six hundred and fifty people were 
laid off because the plant could not afford the increased costs 
of doing business resulting from the salting.
    This plant, which was the first tenant in Sumter's 
industrial park, had been there since 1965, and provided high-
tech, good-paying jobs in a rural area, was forced to close its 
doors just because of salting.
    The impacts of salting are felt by many. Companies see 
increased costs from having to defend themselves against labor 
relations complaints, as well as lost hours of productivity 
having to fight these charges.
    Consumers are impacted by salting when they experience 
increased costs, reduced competition, and fewer new jobs being 
created.
    Federal Agencies spend untold sums to investigate claims 
that are later found to be without merit, forcing taxpayers to 
effectively subsidize union activity.
    To put it bluntly, salting is a job-killer. At a time when 
we are working in Congress to enact policies which will spur 
job growth and ensure future economic prosperity, salting 
abuses are standing directly in the way of these goals. We can 
no longer allow American jobs to suffer at the hands of 
Washington labor bosses.
    To prevent salting abuses from causing more harm to 
employers, I have introduced the Truth in Employment Act, along 
with Representatives Cass Ballenger and John Carter. This 
legislation amends Section 8(a) of the National Labor Relations 
Act, to make clear that an employer is not required to hire any 
person who seeks a job in order to promote interests unrelated 
to those of the employer.
    This bill in no way infringes upon any rights or 
protections otherwise accorded employees under the NLRA. 
Employees will continue to enjoy their right to organize. The 
bill merely seeks to alleviate the legal pressures imposed upon 
employers to hire individuals whose overriding purpose for 
seeking the job is to disrupt the employer's workplace, or 
otherwise inflict economic harm designed to put the employer 
out of business.
    Following my testimony you will hear from businesspeople 
who are on the front lines of the salting debate, and live with 
the effects of it every day. And I applaud them for coming here 
today, in spite of potential pressure not to do so.
    Mr. Chairman, again I thank you for allowing me to testify. 
I would like to submit one testimony from past hearings. It is 
serial number 10572. That was the Committee on Education in 
Workforce, a testimony by Mr. Cook, a former union salt, of how 
he was trained, what his purposes were, so that we make it 
particularly clear that this is not a benign problem. It is a 
serious problem in American workplaces that we need to shut off 
here at the federal level.
    So without objection, I would appreciate----
    Chairman Akin. Without objection.
    Mr. DeMint[continuing]Thank you, sir. And thank you for the 
opportunity to testify. And I would be glad to answer any 
questions that you have.
    [Representative DeMint's statement may be found in the 
appendix.]
    Chairman Akin. Well, let me start to try to understand a 
little bit the nature of how your bill works. You said that the 
essence of the bill is that an employer doesn't have to hire 
somebody who has some interest totally separate from the 
interest of the employer. In other words, the employee is 
working for the union, as opposed to for the company that he is 
being paid to work for.
    How would that be enforced? And isn't that kind of a matter 
of judgment as to what somebody's priorities are? I mean, 
practically, is there a way to enforce it, I guess is what I am 
asking.
    Mr. DeMint. It should be our goal to enforce it. And I 
think not only should employers have the right to decline 
hiring someone who we know to be a union salt, but it would 
also allow them, if found that they came to work under false 
pretenses, would allow them to terminate that employee without 
having to deal with lawsuits from the National Labor Review 
Board.
    Chairman Akin. So this would give them two outs, then. 
First of all, if the guy comes in and says ``I am a salt,'' 
then they could choose not to hire the person, according to 
your legislation.
    Mr. DeMint. Exactly, or with a background check it is 
determined that the----
    Chairman Akin. Okay. Later somebody comes in under the 
radar and says ``I just need a job,'' and then it turns out 
that they are a salt, then that would be a basis to terminate? 
Would that allow them to do that, then?
    Mr. DeMint[continuing]That is my intent. And we might have 
some counsel here to indicate if there is any disagreement in 
that, but that is certainly the intent. If someone is found to 
be working under false pretenses, that they have not told the 
truth, as Congressman Toomey talked about, the whole purpose of 
employment is deceit, then the employer should have the right 
not to have that person working for them.
    And that is really what we are talking about, is freedom of 
employers to hire people who are there to further the goals of 
that employer.
    Chairman Akin. That sounds straightforward. I guess it 
would be interesting to hear whether legally this is 
enforceable, whether the language is right, but I trust that it 
is.
    I would ask my colleague, Congressman Toomey, do you have 
any questions about the legislation?
    Mr. Toomey. Well, I do. And maybe Representative DeMint 
could answer this question.
    Are salts typically, when they are working for a 
contractor, for instance, are they typically also being paid by 
a labor union?
    Mr. DeMint. That is my understanding. And I think we may 
find out more from some of the other witnesses. But that is 
generally, I think, as the Chairman said when he introduced it, 
that is often the case.
    Mr. Toomey. So they are showing up for work. They are 
punching a clock, they are getting paid by that employer. But 
they are also getting paid by someone else.
    Mr. DeMint. Right.
    Mr. Toomey. It only stands to reason that the someone else 
who is paying them wants something in return for having paid 
them. I mean, they are there for some other purpose.
    Mr. DeMint. Exactly. And for the employer to have to pay 
someone to disrupt their business, it should not be allowed.
    Mr. Toomey. Right. Now, the way I read the summary of your 
bill, it says that an employer would not be required to hire a 
person who seeks a job in order to promote interests unrelated 
to those of the employer.
    Is it your intention that it be presumed that if you are on 
the payroll of someone other than the employer, that fact alone 
would be determinative evidence that you are there to support 
some other interest?
    Mr. DeMint. That would be my intent. And certainly that is 
clear.
    Mr. Toomey. Under current law, is an employer allowed to 
ask on an application, for instance, when an applicant comes to 
look for a job, is it legal to ask whether or not you are 
currently, or if you got hired you would be paid by another 
entity, including a labor union?
    Mr. DeMint. I am not sure if it is or not. Someone else 
here maybe could answer that question. But certainly it is 
something we need to find out.
    Mr. Toomey. It is something that, my understanding is that 
it can result in litigation, in any case.
    Mr. DeMint. Right. And that is the problem with a small 
employer. You will hear from them today. There is no way a 10-
person company has the resources to deal with the National 
Labor Review Board, with the attorneys coming in from large 
labor unions. There is no way you can sustain that type of 
attack.
    Mr. Toomey. Right.
    Mr. DeMint. In many cases, they have a lose/lose situation. 
If they try to fire someone who is working against them, they 
end up in litigation. If they keep those people there, they are 
likely to shut them down.
    And so we have got the American employer, who we count on 
to create jobs and prosperity in this country, at a severe 
disadvantage to those who want to destroy them.
    Mr. Toomey. Thank you very much.
    Chairman Akin. Thank you very much. I do not see any other 
people to ask questions, although there are some additional 
things that we may be able to develop from our second panel of 
witnesses.
    I don't know what your schedule permits, Congressman, but 
if you would care to join us up here for a while, for the 
second panel, we would be honored to have you, if you would 
care to do that.
    Mr. DeMint. I may have to leave, but I will certainly make 
sure I get all the testimony today. So I will stay for a little 
while. But thank you so much.
    Chairman Akin. Thank you very much. Can we have now the 
second panel come forward?
    I just want to, once again, formally thank all of you for 
taking the time, some of you to fly some considerable distance 
to join us today. And I understand that there is, I am sorry to 
say, some risk even associated with your coming.
    Of course, that is the whole point of the hearing. But I do 
want to thank you. So I just want to first of all thank you all 
for coming.
    I think what we will do in terms of the order of procedure 
is, I am going to allow each of you to make opening statements. 
I am just going to let everybody have their say. And then 
depending on the different Congressmen and their schedules, the 
ones that come and go, will be able to ask questions. I will 
ask questions, as well. I think that is probably a 
straightforward way to proceed. I think we can move the meeting 
along fairly quickly that way.
    So without further ado, I would like to introduce Clyde 
Jacob, III, from Jones Walker from New Orleans. I believe that, 
Clyde, you are a labor lawyer, and you have fought unions on 
behalf of victimized businesses. Is that overstating things, or 
is that pretty accurate?
    Mr. Jacob. That is pretty accurate. Thank you.
    Chairman Akin. We are going to give you each five minutes 
for opening statement.
    Also, if you would like to just submit something written 
for the record, you can do that. And then if you just want to 
talk off your notes and communicate whatever, however you want 
to handle the five minutes is up to you.
    Clyde, would you proceed, please? Thank you.

         STATEMENT OF CLYDE H. JACOB, III, JONES WALKER

    Mr. Jacob. Thank you, sir. Mr. Chairman, members of the 
Subcomittee on Workforce Empowerment and Government Programs. I 
am pleased to be here, and thank you for your kind invitation.
    I am here today to testify on behalf of the United States 
Chamber of Commerce, Washington, D.C. I serve on the Chamber's 
Labor Relations Committee, as well as its Subcomittee, focused 
on issues specific to the National Labor Relations Act.
    I have written testimony that is much more extensive.
    Chairman Akin. Excuse me. Could you possibly bring the mike 
just a little bit closer? I think they would pick up better. 
Even a little more than that maybe. That wire is long enough 
you will be able to do it, I think.
    Mr. Jacob. How is that?
    Chairman Akin. That is great. Thank you.
    Mr. Jacob. You are welcome. I have written testimony that 
is much more extensive. I would like an opportunity just to 
summarize my written testimony, if I could.
    I agree very much with the definition of salting that has 
been expressed so far in the hearing today. Unions often claim 
that salting is about the right of employees to organize. 
However, nothing could be further from the truth.
    Salting is not about organizing for the employees. It is 
about organizing in spite of the employees. It is depriving 
employees of secret-ballot elections and information about the 
union. It is also about harassing, intimidating, and 
eliminating non-union employers.
    Salting is particularly harsh on small business owners. I 
would like to tell you just one brief story of a case involving 
a Mr. Bill Tillinghast, the owner of Custom Fabrication, Inc., 
a small precision fabrication company in Kenner, Louisiana, a 
New Orleans suburb.
    Bill is a welder by trade, and began his career in 1964 
building Chrysler automobiles for the United Auto Workers 
Union. In 1974, with $600 in the bank, and wife, two children, 
a mortgage, and a lot of determination, Bill left his welding 
job to go after a piece of the American dream: to start a 
precision fabrication company.
    He operated out of a garage for four years, until he had 
saved enough money to move into a small warehouse. By last year 
he had grown to 16 employees; he was planning to hire three 
more employees. So he did what every normal small business 
owner does looking to hire workers; he placed an ad in the 
paper. Bill never expected what would happen next.
    On January 10, 2003, Sheet Metal Workers Local Union 
President, Local Number 11, applied for a welding position. Mr. 
Lopez's application clearly demonstrated his union affiliation. 
Even though he had no precision welding experience, he was 
still offered the opportunity to take a welding test, a 
requirement of all applicants.
    Mr. Lopez took the test and passed one test, but refused to 
take the second test. His reply was, ``I don't care. I will 
sweep floors. All I want to do is organize this place.''
    The foreman replied, ``If you do not want to take the test, 
you should leave,'' which he did.
    Two days later another Sheet Metal Workers member came, and 
did the exact same thing: applied, was interviewed, and refused 
to take the test. Both men then filed charges with the National 
Labor Relations Board alleging discriminatory failure to hire 
because of union affiliation. They also said that the company--
and this was never the case--said the company did not want to 
have anything to do with unions.
    After three months of investigation, and approximately 
$10,000 in attorneys' fees to Custom Fabrication, not a small 
sum to a small business--I mean, we may scoff at $10,000, but 
for a small business that is a lot of money--the NLRB offered 
to settle if Bill would post a notice stating he would treat 
all union and non-union applicants equally. Bill was reluctant 
to do so, but with mounting costs, he did agree to do that.
    The moral of the story is this. Bill Tillinghast worked his 
entire life to create a business he could be proud of, a 
business that would support his family and the families of his 
employees; the type of business that helped make this country 
great. And two individuals who had no intention of working were 
able to come into Bill's business, refuse to take the tests 
required for employment, and then file a charge with the NLRB 
alleging discrimination.
    The union agents did not spend a cent for the NLRB's 
prosecution of their charge. Instead, the American people, 
including Bill Tillinghast and Custom Fabrication, Inc., were 
forced to foot the bill.
    The intent of union salts is not to genuinely seek 
employment. In my estimation, we have to question whether it is 
appropriate for finding a violation of the NLRA for an employer 
for failing to hire an individual who is not genuinely seeking 
employment.
    In this and in past Congresses, several measures have been 
introduced that would address this issue. And Representative 
DeMint is one that the Chamber fully supports.
    Thank you for your opportunity to testify today. I would be 
happy to answer any questions that you might have.
    [Mr. Jacob's statement may be found in the appendix.]
    Chairman Akin. Thank you very much, Mr. Jacob. And our next 
witness is Jason Krause, with Brubacher Excavating, 
Bowmansville, Pennsylvania. The company has had consistent 
salting from two different unions from 2001 through today. The 
majority of the suits have been dismissed by NLRB as frivolous. 
Their local unions will not quit, however, and they have been 
salted as recently as this past Wednesday.
    Is that right, Mr. Krause?
    Mr. Krause. That is correct.
    Chairman Akin. Please proceed with your five-minute 
testimony.

        STATEMENT OF JASON KRAUSE, BRUBACHER EXCAVATING

    Mr. Krause. First of all, I would like to say thank you for 
having me here. And I would like to summarize my statement, and 
ask that it be included in its entirety for the record, what I 
have passed on to you.
    Chairman Akin. Without objection.
    Mr. Krause. Once again, my name is Jason Krause, and I am 
the Human Resource Manager for Brubacher Excavating. It is a 
privately-owned company that has 300 men and women in 
Southeastern PA working there.
    B.E.I. is a proud member of the Associated Builders and 
Contractors, a national trade association made up of 
construction and construction-related firms across the country, 
all of whom are bound by their common belief in the merit shop 
philosophy.
    I am here today to share some of my experiences on salting 
abuse, to express to you the desperate need for legislation 
prohibiting this type of tactic.
    Salting has become an instrument of economic destruction 
aimed at non-union companies. It has little to do with 
organizing.
    A publication of the IBEW, one of salting's principal 
proponents, has described that salting's tactics are filled 
with infiltration, confrontation, litigation, disruption, and 
hopefully annihilation of a non-union construction company.
    Brubacher Excavating and I have become all too familiar 
with this type of disruptive, intimidating, and damaging 
pressure tactic.
    A little history. Between March and May of 2001, nine 
members of the Operating Engineers Local 542 tried salting BEI. 
Upon learning that we would not grant them employment, the 
union filed an unfair labor charge with the National Labor 
Relations Board.
    We retained counsel. We made our defense known to the 
National Labor Relations Board, at which point the Operating 
Engineers withdrew their charge.
    Earlier this year, and in the past 2003, a business agent 
from the laborer's union informed Brubacher Excavating we were 
infringing on their ``union territory,'' and were taking money 
out of the pockets of union members by doing business in this 
area. He went on to make clear that if Brubacher Excavating 
does not choose to have a potential business relationship with 
them, they would have no other choice but to launch a union 
campaign against our company.
    Soon after that conversation, a year-long campaign of union 
harassment and intimidation was initiated by the Laborers Union 
and the Operating Engineers. We have endured everything from 
mass picketing, job shutdowns, picketing of our own open house 
for our families, friends, and employees. Meetings were set up 
with our customers to try to destroy relationships, long-term 
relationships with our customers.
    It all became clear to us that we were victims of an 
unprovoked union campaign to smear our company's image.
    From March through June of 2003, no less than 17 
applications for employment were filed by union salts. Some 
applications were immediately dismissed by BEI because they 
were filed incorrectly, and contained false information. Other 
applicants were disqualified for inconsistencies regarding wage 
and other employment history, past employment history, which 
were later identified.
    Over the course of the year the Operating Engineers and the 
Laborers Union made frequent trips to our office with the sole 
intent to harass our company. In total, 11 organizers were 
involved in filing unfair labor charges. The charges were so 
clearly based off of a frivolous nature, all but two of those 
charges were dismissed.
    B.E.I., along with ABC, firmly believes in laws designed to 
protect employees. However, these laws are being manipulated by 
the labor unions in order to regain their diminishing market 
share.
    Salting abuse has used corrosive government power to 
accomplish union goals, rather than competing fairly and 
ethically based upon merit.
    In defending ourselves against false and frivolous charges, 
we have incurred thousands of dollars in legal fees, delays, 
and lost hours. While unions have the right to attempt to 
organize workers, open-shop companies and their employees have 
the right to refrain from supporting union activities, and be 
free from this type of harassment.
    I would like to thank you for allowing me to speak.
    [Mr. Krause's statement may be found in the appendix.]
    Chairman Akin. Thank you very much, Jason, for joining us 
today, and for your testimony. We will have some questions in a 
few minutes when we finish our other witnesses.
    The next witness is Jonathan Newman. I understand, Mr. 
Newman, that you are a representative of AFL-CIO. Is that 
correct?
    Mr. Newman. No. I am here on behalf of the Building and 
Construction Trades Department of the AFL-CIO, which is a 
separate entity.
    Chairman Akin. Okay. The Building and Construction----
    Mr. Newman. Trades Department.
    Chairman Akin[continuing]Okay. Now, does that mean that you 
work for the union, or for the government?
    Mr. Newman. I am a lawyer in private practice. Our firm 
represents labor unions.
    Chairman Akin. Oh, it does, okay. Then I didn't have as 
much information as I wanted. You have five minutes for your 
testimony, Mr. Newman. Thank you.

  STATEMENT OF JONATHAN D. NEWMAN, BUILDING AND CONSTRUCTION 
                   TRADES DEPARTMENT, AFL-CIO

    Mr. Newman. Thank you, Chairman Akin, ranking member Udall, 
for allowing me to present the views of the Building and 
Construction Trades Department on the issue before the 
Committee today.
    My name is Jonathan Newman, and I am a partner in the law 
firm of Sherman, Dunn, Cohen, Lafer, and Yellig here in 
Washington, D.C. We serve proudly as the general counsel to the 
Building and Construction Trades Department, and have done so 
for many years.
    The Building and Construction Trades Department is 
comprised of 15 national and international unions representing 
approximately one million hard-working men and women in the 
construction industry, and several million more outside of 
construction.
    I ask that the more extensive written statement on behalf 
of the Building and Construction Trades Department's President, 
Edward C. Sullivan, be made a part of the record. And I ask, 
Mr. Chairman, that, like the statements of the other witnesses 
here, it be made available to the public on that table.
    Chairman Akin. Without objection.
    Mr. Newman. The Building and Construction Trades Department 
has witnessed several attempts over the years to do what this 
bill seeks to do. And that is, allow employers to discriminate 
against union organizers and supporters with impunity. Those 
bills which were introduced and considered in the 104th, 105th, 
106th, and 107th Congresses were each defeated, and this bill 
should meet a similar fate in this final year of the 108th 
Congress.
    The bottom line of our position is this. Salting is about 
organizing: organizing construction employers, organizing 
construction workers, period.
    Construction unions use skilled workers as organizers, tell 
them to do the best work possible, and to organize only within 
the confines of the law. These organizers are often referred to 
as salts. Very often they are volunteer organizers. They agree 
to hire on with non-union contractors to perform a good day's 
work for a day's pay, and help unorganized workers gain better 
wages and benefits for their families.
    These organizers engage in the type of activity that 
Congress, the United States Supreme Court, and the National 
Labor Relations Board have recognized as being both protected 
and within the central core purpose of the National Labor 
Relations Act.
    Contractors do not, Mr. Chairman, and should not, as they 
often claim, lose control of their jobs or their businesses as 
a result of a salting campaign. A salt, like any other 
employee, is subject to the employer's direction; must do his 
or her work in a satisfactory manner; and must obey all lawful 
work rules.
    What is really at stake here is whether employers should be 
allowed to discriminate against employees on the basis of their 
union membership and activity.
    Let me address for a moment, if I may, a fallacy I have 
heard in connection with this bill. And that is the idea that 
it would not curtail legitimate rights that employees currently 
have under the National Labor Relations Act. That is flat-out 
wrong.
    The United States Supreme Court has held unanimously, in a 
nine-to-zero decision, that union organizer salts are entitled 
to the protections of the National Labor Relations Act, and 
cannot be discriminated against. This bill would eviscerate 
those rights and allow employers to create blacklists of union 
organizers, effectively hanging a sign in every non-union shop 
saying ``union supporters need not apply.''
    Also, most unions are small organizations. And most union 
officers are part-time union officials. This bill would allow 
employers to discriminate against those officers, and against 
everyone who could be said to be furthering their 
responsibilities when they apply for employment.
    For example, a union shop steward could be legally 
discriminated against when he or she seeks a promotion. With 
seeking that promotion, that shop steward may be deemed to be 
seeking employment ``in furtherance of his union 
responsibilities.''
    Thus, under current law, the situation of a salt is no 
different from that of an employee who is already on the job, 
and who decides to support his or her union. Both are entitled 
to the protection of the NLRA.
    Mr. Chairman, I understand that those who resist organizing 
the construction industry claim that unions seek to drive up 
employers' costs, or even run them out of business. There are 
two answers to that claim.
    First, the goal of organizing in all industries is to 
eliminate unfair competition based on substandard wages and 
working conditions. If a non-union employer is paying 
substandard wages and is organized, it certainly may, after a 
collective bargaining agreement is negotiated, have to pay the 
higher wages and benefits in the union contract.
    Second, salting may result in increased costs to employers 
in another way. Many non-union contractors gain an unfair 
competitive advantage by violating various laws. When these 
contractors save money by violating the wage and hour laws, or 
by failing to comply with the prevailing wage requirements, or 
by failing to comply with OSHA requirements designed to protect 
the health and safety of their employees, it is fair to expose 
them, and we make absolutely no apologies for doing so.
    Those who violate worker protective laws victimize not only 
their employees, but the legitimate contractors, both the union 
and non-union, who abide by the law.
    Finally, if I may, there is a claim that----
    Chairman Akin. You five minutes are up, but finish up. It 
is fine, go ahead.
    Mr. Newman[continuing] May I have one more minute?
    Chairman Akin. Yes.
    Mr. Newman. Finally, there is a claim that unions file 
frivolous charges with the NLRB to cause employers to incur 
legal costs. That is simply not true, and is not borne out by 
any of the statistics kept by the NLRB.
    In fact, as set forth in our written statement, the number 
of unfair labor practice charges filed against employers has 
actually decreased since the Supreme Court's Town and Country 
decision in 1995, and the percentage of charges that have been 
deemed meritorious by the NLRB has held constant for decades.
    Thank you, Mr. Chairman.
    [Mr. Newman's statement may be found in the appendix.]
    Chairman Akin. Thank you for your testimony. Next witness 
is going to be--maybe I will just take a moment to introduce 
Congressman Udall, who is the minority Chair of this Committee. 
And he is going to be making a statement following your five-
minute testimonies.
    And it is a pleasure to have you here, Tom, this morning.
    Let's see. The next witness is going to be Mr. Leonard and 
Mrs. Carol Cloninger. They are Construction Electric, Inc., 
from Helena, Montana. I think you may have the award for 
traveling the farthest to get here, but I know you come from 
God's country up there anyway.
    And you are, as I understand it, a literal mom-and-pop put 
out of business by costly salting induced by litigation. I 
think that was the case that you are going to make, or the 
story that you have to tell us, is that correct?
    Mrs. Cloninger. That is correct.
    Chairman Akin. If you would proceed, you have five minutes. 
Thank you.

   STATEMENT OF CAROL CLONINGER, CONSTRUCTION ELECTRIC, INC.

    Mrs. Cloninger. Thank you. And I have a prepared testimony 
that I would like part of the record.
    Chairman Akin. Without objection.
    Mrs. Cloninger. My name is Carol Cloninger; this is my 
husband, Leonard. We are former officers of Construction 
Electric in Helena, Montana. We started this company in 1989 
out of a pickup truck, to provide a living for our family.
    When we evolved into a larger operation, employing nine 
electricians, we had a bookkeeper, office manager, and a shop 
complex in Helena.
    In October of 1998, up until 2000, the International 
Brotherhood of Electrical Workers began targeting our company 
by filing frivolous complaints to the Montana Electrical Board, 
all of which were dismissed without merit.
    In August of 2001, we dismissed two electricians from our 
company for unsatisfactory job performance. Both had been 
recently hired, and they were on probation. They were 
essentially on the payroll, and not working in a productive 
manner.
    In late September of 2001, we ran an ad in the newspaper 
for an electrician, and began receiving job applications 
through the mail, through registered mail, from the local IBEW 
organizer, who had harassed us previously in the previous 
years.
    At that time, we contacted a labor attorney in Missoula, 
Montana, and acted on his advice. We also received application 
from an organizer in Billings, from the IBEW. And Billings is 
250 miles from the capitol city, he was interested in coming to 
work for us from that far away.
    We received a total of five applications, two of those 
which were what they called overt salts, and three which were 
covert salts. And that is all lined out in the testimony that 
we submitted.
    In November of 2001, we received notice from the NLRB that 
we had been brought up on alleged charges for certain unfair 
labor practices by three of those five applicants. We attended 
a preliminary deposition in Missoula, to determine if there 
were grounds for discrimination, and that was followed by a 
hearing in July of 2002. And in September of 2002, judgment was 
handed down in favor of the IBEW.
    We received notification in March of 2003 of back wages 
owed to three of these individuals, for an amount of $42,000. 
And we were ordered to offer them jobs to make them whole. I 
might add that there were long periods of time, when we had 
asked numerous times for this process to be sped up, and we 
were told by members of the National Board that there was a 
tremendous back load, and that they would get to our case 
hopefully in time. But it ended up costing us a large amount of 
money because of the delays.
    In April of 2003, my husband and I discussed our options, 
and we decided to close the company's doors. We could not 
continue to do business in that manner and be profitable.
    Let me back up. The NLRB confiscated our bank account and 
our accounts receivable in June of 2003, for a total amount of 
$32,000. Late in July of this last year, we agreed to settle 
with the NLRB for that amount of $32,000, and this was to avoid 
bankruptcy of our company, and also due to the threat that my 
husband could go to jail if he didn't comply.
    We provided benefits, such as retirement and health 
insurance and dental insurance, to our employees. We had one 
electrician who had been a diabetic since he was 19 years old; 
had never been able to afford quality health insurance. He was 
able to get an insulin pump and all the supplies that he needed 
to be a productive worker and live a healthy life.
    We had another electrician who had never had health 
insurance his whole life. He needed extensive dental work, and 
he also had a drug problem, which he was able to go into rehab 
with our insurance that we provided, as well as get his teeth 
fixed. He is now living in the Seattle area working as an 
electrician, and is doing well.
    We produced two master electricians, and we had four 
apprentices that were able to get out into the community and 
are doing well.
    This was a terrible loss for us. We were taught when we 
were growing up that we needed to be accountable, and that it 
was always best to tell the truth. We ask you to, as we share 
our story with you, we ask everybody here to consider their 
values, and to consider this bill in an effort, and in the 
beliefs of our country, that we do things for the right 
reasons, and that we be honest.
    Thank you very much. And we are always open for questions, 
if you have any.
    [Mrs. Cloninger's statement may be found in the appendix.]
    Chairman Akin. We will do the questions in a little while. 
Thank you, Carol, and then Leonard.

  STATEMENT OF LEONARD CLONINGER, CONSTRUCTION ELECTRIC, INC.

    Mr. Cloninger. The only thing I would like to say is, 
everyone testifying here today is right on, except for the 
legal representation for the AFL. I feel like he hasn't been in 
the trenches, and he really doesn't know what it is like to be 
a small businessman.
    That is all I would like to say.
    Chairman Akin. Thank you for your testimony. Our last 
witness is Mark Mix, President of National Right to Work, from 
Washington, D.C. You have five minutes, Mr. Mix.

         STATEMENT OF MARK MIX, NATIONAL RIGHT TO WORK

    Mr. Mix. Mr. Chairman, thank you. I find it difficult to 
speak after this story that we have heard from our two 
witnesses just now.
    I am Mark Mix, President of the National Right to Work 
Committee. Mr. Chairman, thank you for the opportunity to be 
here. On behalf of the 2.2 million members of the National 
Right to Work Committee, we commend you and Congressman DeMint 
for shedding light on this issue. This is an important issue.
    I want to approach the issue from a little different angle. 
I would ask that my statement be included in the record. I am 
going to deviate a little----
    Chairman Akin. Without objection.
    Mr. Mix[continuing]Bit and respond to what has been said 
here today.
    We, the Right to Work Committee, are dedicated to the 
principle that every individual worker should have the right, 
but should not be compelled, to join or financially support a 
labor union.
    We are talking about small businesses, and the devastation 
that this particular practice of salting wreaks on those people 
that own small businesses.
    But there is an element, as well, that needs to be 
discussed and considered. And that is the element of the 
employees of these companies. These individual workers, in most 
cases, have decided, for whatever reason, not to join or 
organize a union in their workplace. And the only way that 
union officials can get a toehold in these places of business 
is to send someone in, who in many cases is paid to do so by 
the union.
    The labor laws in this country protect an individual to 
exercise their rights, vis-a-vis unionization. Section 7, the 
preamble of the National Labor Relations Act, states very 
clearly that individual employees have these rights. And to 
discriminate against someone based on union membership or non-
membership in a union is against the law. And people are 
prosecuted for that, and they should be.
    The section 7 preamble of the National Labor Relations Act 
unfortunately also contains a provision that allows for 
compulsory unionism. And that is, individuals can be forced to 
pay dues to join a union, or lose their job.
    In the cases that we have heard about with these small 
businesses, while the small businessmen and women are obviously 
devastated by this, what about the employees that work for 
these companies? They have and can exercise their rights to 
join unions or not to join unions, but they haven't. And now we 
allow, through the Supreme Court--the AFL-CIO is correct, 
unfortunately the Supreme Court has ruled on this witness. It 
is unbelievable to us that salting is currently sanctioned 
under the National Labor Relations Act.
    As it stands today, salting is interpreted and enforced 
based on a flawed interpretation of section 8(a), we believe. 
Small business owners and employees are continually brought up 
on unfair labor charges for insisting that employees focus 
primarily on doing the job they are actually being paid to do.
    To give you some real-life examples, and we have heard a 
couple of good ones here, I want to take the case of Randy 
Truckenbodt, who is the owner of a non-union equipment company 
out in Illinois, who had several dozen employees. His business 
was attacked. A union salt applied for the job and was given 
the job. Within months, using company information provided by 
the salt, union officials and agents began following Mr. 
Truckenbodt's employees as they delivered their products to 
clients' businesses.
    They warned customers that they would face picketing and 
strikes unless they stopped buying and renting from Mr. 
Truckenbodt and his employees. Union members also picketed in 
front of Mr. Truckenbodt's offices 24 hours a day, seven days a 
week, for months.
    This salting campaign cost this company over $600,000 in 
lost customers and legal fees.
    In addition to the intimidation tactics, Mr. Truckenbodt's 
company was vandalized dozens of times during the so-called 
organizing drive. Vehicle tires were slashed, electrical cables 
were cut, truck windows were broken, all during this effort to 
force union control over his employees.
    In 23 years prior to this organizing drive, there had never 
been a recorded incident of vandalism.
    When the destruction was taking place, the union salts 
filed multiple false unfair labor practice charges against Mr. 
Truckenbodt's company, all of which were eventually dismissed.
    The business survived the salting campaign, and he and his 
company employees are still able to provide for their families.
    But I want to talk about another employer, Charlie Walz, 
who runs a masonry company in Nebraska. Charlie started out as 
a union man, but he figured he could provide better service at 
lower prices for customers by going out on his own, union-free.
    Charlie wanted a piece of the American dream. And like many 
hard-working Americans, he started his own company to make that 
dream a reality.
    Before long his company was flourishing, his clients were 
happy, and so were his small but growing army of employees. But 
his success came with a price. The bigger Charlie's company 
got, the more employees he had, the more union officials wanted 
a piece of the action.
    So when Charlie's employees resisted an unwanted advance of 
the union organizers, the salting started. This means that his 
employees rejected union organizing, and the union had to hire 
someone to come in and organize the company.
    Charlie's company was fined by the NLRB. He spent tens of 
thousands of dollars on legal proceedings. Yet videotaped 
evidence supplied by Charlie's lawyers showed that union salts 
had refused job applications that were offered to them by 
Charlie's daughter.
    Charlie is still in business. He was able to survive. But 
many are not so lucky. When small businesses resist salting, 
unless they are subjected to potentially ruinous legal costs 
and fines, they acquiesce to union monopoly control.
    The Truth in Employment Act is an important piece of 
legislation. It protects not only the rights of small 
businessmen and women to run their businesses, and to hire 
employees who have a bonafide interest in working for that 
company, but it also protects those individual employees across 
the country who have decided, for whatever reason, not to join 
or associate with a union. This is important legislation, and 
we believe it needs to be supported, debated, and passed.
    Thank you.
    [Mr. Mix's statement may be found in the appendix.]
    Chairman Akin. I think you got the award for the best 
timing. You finished right when the little red light went on.
    Thank you for your testimony, everybody, and I appreciate 
you all taking time to join us here today.
    Next in order of business is going to be recognizing the 
minority leader of this Committee. And Mr. Udall has been 
working with us a number of years, has a great deal of respect 
in the Congress, and we are very eager to hear his opening 
comments, as well.
    Tom.
    Mr. Udall. Thank you. Thank you very much, Mr. Chairman. 
And I apologize to the Chairman for missing Representative 
DeMint and two of the witnesses. But I am here now, and ready 
to participate. And I will try to just give a brief opening 
statement.
    As the economy continues to struggle, we see the toll it is 
taking on many workers, as jobs are shipped overseas, wages are 
slashed, and benefits, such as health care and retirement, 
vanish.
    The reality is that a need does exist for unions to protect 
and advocate for our nation's workers. It is just as important 
now as it was decades ago.
    Unfortunately, while the need is great, we are seeing an 
overall decline in union membership. Not because of a lack of 
interest, but due to a lack of access.
    While some employers today allow their workers to unionize, 
there are others that construct barriers and engage in covert 
campaigns to intimidate and dissuade workers from learning 
about the benefits of union membership. Therefore, one of the 
only ways for these non-union workers to find out about the 
rights and conditions they are entitled to is through the 
practice of salting.
    Salting is about the empowerment and education of working 
people. It is a practice that trains union members to work for 
non-union firms in an attempt to gain a foothold and organize 
the work force from within. This concept is useful in 
industries such as construction, where workers are constantly 
moving from one job to the other, and one contractor to the 
other. It is the most effective way for union organizers to 
communicate with these workers, by hiring them on these 
projects, and then finding time to educate them on their 
rights.
    Unfortunately, there is a great deal of misconception 
surrounding salting. Salting does not disrupt the workplace. 
These individuals are held to the highest standards of conduct, 
meaning they work as hard as they possibly can to contribute to 
the company's overall success. There is simply no evidence that 
salting hurts small businesses.
    Many employers falsely believe that salting results in 
frivolous charges being filed by unions. However, this is not 
the case. Both large and small companies actually benefit from 
salting. Many times it uncovers massive violations of workers' 
rights by employers attempting to gain unfair advantages.
    While most employers truly want to do what is best for 
their employees, the reality is there are bad players trying to 
prohibit their workers from earning fair wages and unequal 
benefits. That is why unions are important, and salting is a 
vital tool.
    Because a stigma persists in many areas, having a union 
card may mean getting a pink slip. And this cannot be 
tolerated.
    I know Representative DeMint testified earlier on his bill, 
and he has got some serious challenges in his state. And I 
would like to work with him on those challenges facing textile 
workers. And I hope that we would be able to get strong 
protections for the workers in those jobs, and make sure that 
there aren't further job losses and turmoil in that particular 
industry.
    However, HR 1793 affects the basic right of workers to form 
and join unions. Simply stated, this legislation allows an 
employer to refuse to hire, or fire workers if their primary 
purpose for seeking employment is to organize on behalf of a 
union. This undermines the intentions of the original National 
Labor Relations Act, which was enacted for the purpose of 
protecting the right of workers to form and join unions.
    As recently as 1995, the U.S. Supreme Court ruled 
unanimously to uphold the practice of salting, as one of our 
witnesses, several witnesses have noted. HR 1793 tries to 
overturn the U.S. Supreme Court decision, and in my opinion 
would nullify the essential purpose of the National Labor 
Relations Act. We should not attempt to weaken processes like 
salting, which are an essential way for working families to 
access fair wages, health benefits, and workplace protections.
    The National Labor Relations Act has been one of the most 
productive, most effective anti-poverty programs in our 
country's history, because it allows working people to engage 
in collective bargaining in order to elevate their standard of 
living.
    This proposal is a step back from that commitment. We 
should be standing in support of working families, not pursuing 
initiatives that weaken their quality of life.
    Thank you, Mr. Chairman. And I look forward to 
participating in the questioning process.
    Chairman Akin. Thank you. I had quite a few questions here. 
It will take a minute to try to see where to start.
    The first thing is, Mr. Jacob, in that you are an attorney 
and I am not an attorney, it is my understanding that in 
general--I don't know if this is state law or federal law--that 
as a rule, it is an illegal thing to try to intentionally put 
anybody out of business. Is that true?
    Mr. Jacob. That could be a matter of state law, it could be 
a matter of federal law. As far as putting a company out of 
business, you can be hit with various business torts. I would 
say for the most part it is a matter of tortious interference 
with business, which you would find mostly at the state level.
    Chairman Akin. That is mostly a state law? Because I think 
I remember there was some deal that I was involved in, some 
abortion-type situation. And somebody said, I remember an 
attorney said, you know, you are perfectly legal if you want to 
have this organization not do abortions. That is legal to have 
that as your objective. But it would be illegal to have your 
objection to say that you want to put someone out of business.
    Mr. Jacob. Many states have a tort called tortious 
interference with business. And----
    Chairman Akin. That is what they were probably referring 
to, then. Okay. So if the objective of a union were to actually 
put somebody out of business, then that would be in violation 
of at least some state laws.
    Mr. Jacob[continuing]It could, but you would run into a 
preemption problem likely, under the National Labor Relations 
Act.
    Chairman Akin. In other words, it is okay to do it in that 
situation.
    Mr. Jacob. It is a very fact-intensive type of question, as 
to whether a particular state law is preempted by the National 
Labor Relations Act.
    Chairman Akin. Thank you. Second question to whoever. Is it 
true that there is a large backlog of cases with the NLRB? Is 
that true? I think it was part of your experience, the 
Cloningers, that you said there was a big backlog?
    Mrs. Cloninger. That is what we were told from our 
attorney, when he tried multiple times to contact the 
compliance officer that was involved in our case. Every time he 
talked to the compliance officer, he would say, well, I have 
got 30 cases ahead, and I will get to this when I can.
    Chairman Akin. Which effectively ran the clock, and ran up 
your fees for back wages and everything else.
    Mrs. Cloninger. Yes, that is correct.
    Chairman Akin. So you were really put right out of business 
by that entire situation.
    Mrs. Cloninger. The delays. Had it been done in a timely 
manner, we could have probably paid the fine and maybe even had 
enough work lined up that we could have used these employees. 
And we would have, had we had the work. But you know, our 
company was in so much crisis, we just lost our productivity 
and had difficulty. The economy certainly was a factor in that. 
You know, it just became prohibitive for us to stay in business 
at that point.
    Chairman Akin. Mr. Mix, you made a comment, something about 
employees have the freedom not to be unionized.
    I think that what you were saying seemed to be pretty much 
in contradiction with what Mr. Newman was saying. Mr. Newman's 
comment is, you know, we want to use this as a means to allow 
laborers to know that they could be unionized, or about certain 
rights that they may have legally, that the laborers have no 
other way of getting to know.
    That seems to be kind of in conflict with what you were 
saying, which was they have got the freedom, if they don't want 
to be unionized, to be left alone.
    Am I correct is seeing there is a complete difference of 
opinion on that point?
    Mr. Mix. Well, I think there probably is a complete 
difference of opinion on that point.
    I would say this. In 28 states that do not have right-to-
work laws, workers can be compelled to accept the 
representation and pay financial fees to a labor union as a 
condition of keeping their job.
    What I meant to address, was the example, in the company 
that we are talking about here in Montana. It wasn't the 
employees that they had hired that were interested in 
organizing the union. As a matter of fact, I would guess, I 
don't know, but I would say these employees were happy with 
their situation, and they weren't intending to organize a 
union. And if any one of these employees who was currently on 
the payroll would have come to these employers and said, look, 
we are going to organize a union, if they would have fired that 
employee, that employee certainly had rights under the law, 
protected rights under the law. And it would have been illegal 
to fire that employee for trying to organize a union.
    The fact is, the Cloninger employees didn't want the union. 
And the union had to bring somebody in under false pretenses to 
get that organizing drive started. And that is outrageous.
    Chairman Akin. Thank you. I guess I have got one other 
question. And that is, the whole salting thing is somewhat new 
to me. But it also seems strange to me. And this is maybe more 
of an answer than a question, but I would appreciate it if a 
couple of you want to respond.
    And that is, in a way, as a Congressman, I am in a way sort 
of a small businessman, in that I have 14 or 16 employees that 
work for me, some in a district office, some working here in 
D.C. And when I hire people, I wouldn't expect them to have a 
job that conflicts with the job that I am hiring them to do for 
me.
    If one of them wants to get a job after hours and works at 
a different time or something like that, like they want to get 
a job bussing tables or singing in some bar or something, that 
is okay with me, as long as it doesn't interfere with, you 
know.
    So it seems like an odd idea to have the Supreme Court or 
some law saying that you have got somebody who is being paid--
because when you are paid, you are working for two different, 
separate bosses. I mean, with all due respect to my good friend 
Tom over here, if a legislative assistant says, ``Todd, I want 
to work for you as your LA, but I am also Tom's LA,'' I would 
say wait a minute, you know, which one are you going to work 
for?
    This seems like a strange situation, where somebody is 
being paid by two different employers. And it seems like it 
creates naturally a divergence of loyalties.
    I guess one thing that you said, Mr. Newman, was that very 
often the salts are volunteers. I heard other people say very 
often they are paid. Is it ever the case that salts are paid?
    Mr. Newman. Sure. But very often they are not paid.
    Chairman Akin. Well, let's talk about the cases where they 
are paid. Do you think that is appropriate, for somebody to be 
paid by two different people?
    Mr. Newman. Of course I do. Certainly.
    Chairman Akin. And you don't think that creates any sort of 
a tension in terms of loyalty?
    Mr. Newman. The idea that there is a tension in terms of 
loyalty is at odds with 65 years of labor relations in this 
country.
    There are thousands, tens of thousands, of union shop 
stewards that work in unionized plants, that are paid by their 
unions. There are thousands and thousands of part-time union 
officers that go into the hall on the weekend and do what they 
need to do for the union, but spend the time working for their 
employer and are loyal, good, hard-working employees. There is 
absolutely no conflict, I don't think, at all.
    Salts are told and are instructed to follow their 
employer's directions, perform a very hard day's work, and show 
both the employers and the employees, the non-union employees, 
what union trades workers can do. They are the most highly 
skilled, highly trained, highly motivated workers in the world, 
and that is what they are there to demonstrate.
    Chairman Akin. That seems to be at odds with the other 
testimony we have heard.
    I now would turn to the minority member, Mr. Udall.
    Mr. Udall. Thank you very much, Mr. Chairman.
    Mr. Newman, some businesses have raised the issue that it 
is unethical to go to someone's business as a salt, to seek 
employment for the express purpose of trying to organize 
employees. Can you respond to those comments?
    Mr. Newman. Obviously, I don't think that that is 
unethical. I don't think it is unethical to exercise rights 
that are protected by the National Labor Relations Act, to 
exercise rights that we judge other countries' human rights 
records on.
    What I do think is unethical is to discriminate against 
someone who applies just because they are a union member. What 
I do think is unethical is threatening employees that you will 
close down their business before you will ever recognize a 
union. What I do think is unethical is firing union organizers. 
What I do think is unethical is threatening to use physical 
violence against anyone that so much as dares organize. And 
what I do think is unethical is inferring, both here and 
elsewhere, that there are ulterior motives involved, and that 
people have been threatened.
    I was accused of not being in the trenches. I have been in 
the trenches on these matters. I have represented employees 
that have been discharged for doing nothing else than putting 
on a union button or wearing a union tee-shirt.
    So do I think it is unethical to organize? Absolutely not. 
In my view, I have seen many unethical practices on the other 
side.
    Mr. Udall. Mr. Newman, if a non-union contractor hires a 
union salt, what kinds of things does the salt do to promote 
union organization?
    Mr. Newman. First, he will see he does the best job that he 
can. Because, number one, he wouldn't want to give anyone a 
lawful excuse, which is if you are not doing the job that you 
are supposed to be doing, there is nothing in the law that 
prohibits that contractor from firing that organizer. And 
obviously we don't want that to happen, and we want to 
demonstrate to the contractor that if it signs a union 
contract, it is going to have access to highly trained, highly 
motivated, highly skilled employees. So number one, they are 
told to work hard.
    Number two, they are told to engage in organizing activity 
only within the confines of the law. And that means, for the 
most part, during non-work time, and often in non-work areas, 
like the break room or a break trailer.
    Mrs. Cloninger. May I----.
    Mr. Udall. Mr. Newman, is the purpose of salting to force 
non-union contractors to spend money defending frivolous, 
unfair labor practice claims?
    Mr. Newman. Absolutely not. And I think if you look at, and 
if anyone did the research and opened the books, and looked at 
the statistics that the National Labor Relations Board is 
required to keep as a matter of law, you would find that there 
has been no increase in unfair labor practice charges. Nor has 
there been any decrease in the number of charges that the Board 
has deemed meritorious.
    Mr. Udall. And let me be more precise there. Do you know 
whether the number of unfair labor practice charges filed 
against employers has increased in recent years or not?
    Mr. Newman. Yes, I do know that. I actually spent a morning 
this week at the National Labor Relation Board's library, which 
is open to the public, and I encourage anybody to do the same.
    They issue a report every year, an annual report, where 
they break down the number of unfair labor practices that have 
been charged. And just to put everything in context, unfair 
labor practice charges average anywhere between about 28,000 to 
35,000 charges a year. A little less than a third of those are 
charges against unions. So about two-thirds are charges against 
employers.
    The year before the Town and Country decision was issued, 
which everyone thinks was the impetus to this explosion in 
salting, you had about 34,000 unfair labor practice charges 
filed. Last year, I believe the number was about 27,000. It was 
an 18- to 20-percent decrease since the Town and Country 
decision.
    Mr. Udall. Mr. Newman, in your opinion as a lawyer, would 
HR 1793 overturn the U.S. Supreme Court decision in Town and 
Country Electric, and effectively nullify the essential purpose 
of the National Labor Relations Act?
    Mr. Newman. Yes.
    Mr. Udall. What would you say to those who argue that 
legislation such as HR 1793 is necessary, since it is too 
expensive and burdensome for employers to defend themselves 
from mere allegations that they may have violated the National 
Labor Relations Act?
    Mr. Newman. Again, you know, to put everything in context, 
I have been on both sides as an attorney, both sides of an 
unfair labor practice charge. I have represented charging 
parties, and I have responded to charges filed against labor 
unions.
    The first thing that happens, when you are a charging 
party, you are the person that is filing the charge against the 
employer, and you file it with the National Labor Relations 
Board. The first thing that happens is, the Board does not go 
out and get in their National Labor Relations Board police car, 
and go to the employer's offices.
    The first thing that happens is they contact the union, and 
they say, ``You better give us evidence that you have, which 
essentially makes out a case of an unfair labor practice,'' 
before they will even approach an employer. And I say that 
because I have been on the other side of an unfair labor 
practice charge. I have represented unions on frivolous charges 
and charges that have had more culpable merit.
    And when the charge is completely frivolous, the work that 
is undertaken on that, that is, the person that has been 
charged, oftentimes is nothing more than a phone call to the 
National Labor Relations Board explaining the fact that the 
charge is frivolous, and that is the end of the matter.
    So what I am getting at is, in order to even get through 
the door of the National Labor Relations Board with your 
charge, you better present, and you have to present, enough 
evidence to establish that you have more than a culpable claim.
    Mr. Udall. Thank you. Mr. Chairman, I see my time is 
exhausted.
    Chairman Akin. Thank you. Next I call on Congressman 
Toomey.
    Mr. Toomey. Thank you, Chairman. Mr. Newman, you have made 
the point in your testimony and your response to a question 
that the idea of a divided loyalty is a phony one.
    But yet on page seven of your testimony, you have a 
sentence here where you say the participants, and you are 
referring to the salts, are willing to work for non-union 
companies in order to promote the union's goal of organizing 
unorganized employees.
    It seems to me you have put it very clearly. These people 
are taking this job, they are taking someone else's money--
namely, the employer, the contractor in this case--while 
working to promote the goal of an organization that has a whole 
different set of agendas. And you don't see any conflict there.
    Mr. Newman. I don't. I mean, Representative Toomey, let's 
take an example of an employer that someone suspects is 
engaging in race discrimination.
    Mr. Toomey. But that is not what we are talking about. We 
are talking about----
    Mr. Newman. Oh, but----.
    Mr. Toomey[continuing]No, but I am trying--let me, I have 
got a few other questions and limited time.
    If someone came to work on my staff, and they were--I am a 
Republican--if they were on the payroll of the Democratic 
Congressional Campaign Committee as well, while they were 
working for me, should I be forced to hire and keep that person 
on my staff?
    Mr. Newman. Well, there is a huge assumption built into 
your question.
    Mr. Toomey. But it is the question. Do you think I should 
be forced to hire that person? Or should I be allowed to fire 
that person solely on the grounds that they came to work for me 
while they were being paid by the Democratic Campaign 
Committee?
    Mr. Newman. Well, as far as I know, the National Labor 
Relations Act doesn't protect party status, so I think you 
would be safe in not hiring that person.
    Mr. Toomey. Let me ask another question. Do you advocate 
that salts deceive the employers by not disclosing that they 
are, in fact, salts?
    Mr. Newman. It depends. And I can tell you why. First of 
all----
    Mr. Toomey. So sometimes you do advocate that.
    Mr. Newman[continuing]Well, I can tell you what happens in 
reality, in the trenches. And that is, if you write down on 
your application, as folks did that applied to the gentleman on 
my left's company and the folks on my right's company, they are 
not hired. If you disclose that you are a union organizer, what 
happens is you are not hired.
    And so oftentimes, that fact is not mentioned on an 
application. And there is a decision in the Seventh Circuit 
Court of Appeals by a very, very conservative Republican-
appointed judge, Judge Posner, that said that is okay. Because 
whether you are a union organizer or not should be irrelevant 
to the question of whether you are hired. Because it is 
unlawful to discriminate against somebody that is a union 
organizer.
    Mr. Toomey. So there are times, then, when you do advocate 
that that information be withheld. Which I think is inherently 
deceptive.
    Mr. Newman. If someone goes and applies to a contractor 
over and over, and has disclosed that they are a union 
organizer, and it happens to be that while they are hiring 20 
or 30 people off the street, they have refused to hire the 50 
folks that are better trained, better qualified but the only 
difference being that on their application they say union 
organizer, then yes. I think at the end of the day, in order to 
avoid being discriminated against, oftentimes you have to leave 
that off your application.
    Mr. Toomey. We have got testimony that we heard today. 
There is a story about a Mr. Truckenbodt's company. And there 
is allegations that terrible things were done. In one case, 
part of this testimony says that a company, using information 
provided by the salt, sent agents that followed Mr. 
Truckenbodt's employees as they delivered their products to 
clients' businesses. And when they got there, they warned the 
customers that they would face picketing and strikes unless 
they stopped buying and renting from Mr. Truckenbodt. Do you 
advocate that kind of practice?
    Mr. Newman. No.
    Mr. Toomey. You do not advocate it. And so I assume that 
you certainly do not advocate, and in fact would condemn, the 
vandalism that is alleged, the broken windows and the tires 
getting nails, and----
    Mr. Newman. Yes, of course.
    Mr. Toomey[continuing]Which we have heard significant 
testimony, though.
    Mr. Newman. Well, I can tell you there is, I can give you 
significant testimony. Representative DeMint this morning 
offered testimony from previous hearings. I would encourage 
everybody to go back and look at the previous hearings on this 
issue. And you will read testimony from union organizers who 
were beaten with pipes, who had suffered similar vandalism at 
the hands of non-union contractors.
    So I don't advocate it on either side, Mr. Toomey.
    Mr. Toomey. Do you acknowledge that it often happens with 
salted employees? Or do you dispute that? Do you have any 
statistics about the frequency of that?
    Mr. Newman. I would acknowledge that union organizers often 
suffer physical violence. I would absolutely deny adamantly 
that union organizers engage in physical violence.
    Mr. Toomey. Mr. Mix, do you have any comment to make about 
that?
    Mr. Mix. I think the facts speak differently about that.
    If you look at the record, the testimony of the former IBEW 
organizer that Congressman DeMint submitted into the record, 
you will see clearly he states that he was trained not to 
organize workers, but to file unfair labor practice charges 
against the employer that had hired him.
    So I would encourage you to go back and look at that 
record. There is lots there, I would agree.
    Certainly there are troubles and disputes in the workplace. 
But I would suggest that asking these two about their 
experience is probably the most beneficial thing we can do. 
They are in business, on the front lines, and they are seeing 
this.
    The theoretical arguments that we are hearing that the AFL-
CIO do not endorse this are totally rejected in the testimony 
of Mr. Cook, as a trained union organizer specifically to salt 
a company. Specifically to salt a company. Not to organize it; 
he admits it in the record.
    I think the Cloningers' experience and the practical 
reality of this practice doesn't match to the theoretical that 
we are hearing today.
    Mr. Toomey. Thank you.
    Mr. Cloninger. Could I add something to that, please? 
Gentlemen----.
    Chairman Akin. I think Mr. Toomey would allow you to.
    Mr. Toomey. Certainly.
    Mr. Cloninger. Gentlemen, I have been an electrician for 27 
years. The first nine of those 27 I was a union electrician. 
And I chose to leave the union because I didn't like what I 
saw, because of things that were not fair, and very, very 
intimidating to myself.
    I was on both sides of the fence. I was union, and then I 
became non-union.
    We are clearly talking about a small business versus very 
large businesses, where unions do play a role in benefitting 
the employees. The point I would like to make is small business 
doesn't need another middle-management person interfering 
between us and our employees.
    And that is what I would like to say.
    Mr. Toomey. Thank you very much.
    Chairman Akin. Thank you. You know, this is one of the 
situations we run into sometimes in the political world, where 
you have just got totally completely opposite and diverging 
opinions on something.
    You know, the testimony of Mr. Newman was that these salts 
are great workers. Now, is there anybody else, other than Mr. 
Newman, on the panel that wants to say that--did anybody have 
great workers that were salts?
    Mrs. Cloninger. I would like to comment on that. The two 
electricians that worked for us, that we did let go, in their 
probationary period, one electrician refused to go into a 
crawlspace when he was asked. Well, when you are doing 
electrical work, you have to get into a crawlspace to complete 
the task at hand.
    The other electrician had, we were working on a motel. And 
this guy had a tool pouch at one end of the building. And he 
was wiring some boxes on the other end of the building. He 
would go to his tool pouch on one end of the area, go do the 
work with the tool, walk clear back over to the tool pouch and 
get a different tool, and walk clear back over to the box that 
he was working on.
    Chairman Akin. What you are saying is he was not only not a 
good employee, but he was an intentionally bad employee in that 
situation. That was your experience, Mr. Jacob?
    Mr. Jacob. In my testimony, written testimony, I tell the 
story of two union members who applied. They were hired. They 
knew what the pay was. The moment that they started on the 
project, they immediately started protesting the pay, did not 
do one piece of work, then said ``we're going on strike,'' then 
filed unfair labor practice----
    Chairman Akin. So the bottom line is they were not good 
workers.
    Mr. Jacob[continuing]No, they were not. Their purpose was 
to disrupt.
    Chairman Akin. Mr. Krause, were your salt workers good 
workers?
    Mr. Krause. Well, we kind of have a different scenario at 
our company that has taken place. We have never had the 
opportunity to hire salt workers.
    And it is clear to me that I have a different view on this. 
And to put everybody's mind at ease, these people do identify 
themselves, at least at our company. We are a little bit bigger 
company; we have 300-plus employees. They do identify to us who 
they are. And there is no mistake about who they are the moment 
they come in the door.
    Chairman Akin. So you are a little bit bigger operation, 
then.
    Mr. Krause. Yes, we are a little bit bigger. From the 
moment they walk through the door it is very well known who 
they are. They have their hats, their shirts. They come in 
groups, six, seven employees at a time to fill out 
applications. They all know me by name. They know my family. 
They know my father, who was a longstanding union worker. Some 
of them worked with my father.
    So they come to our company in a little bit different 
manner.
    It strikes me odd how the gentleman aside of me says that 
they are the most highly trained and skilled people coming in, 
yet they fail to complete the application consistently, and 
make errors on their part all the time, to make it usually 
pretty easy to rule them out through the hiring process with 
just their applications.
    We are currently getting ready to go to a hearing now to 
discuss two individuals that yet weren't dismissed; however, 
all 11 of them from this current 2003 year have been dismissed 
for failing to return phone calls, different wage history, 
stuff of that nature.
    Chairman Akin. So your experience was the same, that they 
weren't necessarily the most professional people.
    Mr. Krause. No. And they----.
    Chairman Akin. That is all I wanted to do on that 
particular question. What my point is, I am trying to point out 
just, it is really amazing, there is just really a difference 
between, you know, the theory and what seems to be going on out 
there in the workplace.
    I think the thing that concerned me the most was when I 
heard that people were afraid to even testify here because of 
the rough tactics that have been going on, and that is what a 
number of you documented, that those things were happening, 
that seems to me so un-American.
    Did you want to comment on that?
    Mr. Jacob. Yes, sir. I told the story of two clients that 
we represented. There were about four others who would not let 
me tell their story, ones that have charges pending, ones that 
just do not want the kind of trouble that they have experienced 
with salting in the past.
    Chairman Akin. It seems, from the testimony that we are 
hearing, and from the people that don't even want to testify, 
that the salting practice is very expensive, overall. It is 
expensive to companies. It is expensive to our competitiveness 
as a nation, our ability to be competitive.
    Mr. Newman. Mr. Chairman, could I address that point, if I 
might?
    Chairman Akin. You have got about 30 seconds to, yes.
    Mr. Newman. To tell you how contractors can make the 
salting practice very inexpensive.
    Chairman Akin. Unionize, right?
    Mr. Newman. Excuse me?
    Chairman Akin. Just unionize, right?
    Mr. Newman. No, it is not violating the law. And the reason 
why contractors are hit with $40,000, $50,000 fines is because 
they violated the law. Because Administrative Law Judges, the 
National Labor Relations Board, Courts of Appeals who enforce 
those orders find that they have violated the Act.
    Chairman Akin. Well, it may be that that is part of the 
point of our hearing, even. I mean, as I see how it has worked 
out, and I hear the logic of what the Supreme Court is saying, 
it seems to me that you have got a complete conflict of 
interest when you have somebody being paid, you know, to do two 
different, separate things.
    My time has run out. And I have to run things by the rules 
here.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. Mr. Newman, you were 
asked by Representative Toomey about the divided loyalties 
issue, and I think you wanted to respond. Do you remember where 
you were in that?
    Mr. Newman. I think I responded. And that is simply that 
the idea that there is necessarily this unbridgeable conflict 
between a union member and an employer is just completely at 
odds with everything this country has stood for, and everything 
we judge other countries on, for centuries.
    And that is, you can be a good union member and a good 
employee at the same time.
    Mr. Udall. Are there other issues that have been raised by 
witnesses here that you would like to respond to? Charges or 
allegations or something that you think have gone unanswered, 
that you would like to respond to?
    Mr. Newman. Well, I guess I would just say this, and repeat 
what I have already said.
    First, you know, I am a small business owner. I am a 
partner in a very small firm, and I appreciate and support 
small businesses, as does the Building and Construction Trades 
Department and organized labor.
    It is in no one's interest, on the labor side or management 
side, to drive anyone out of business. We know and we 
appreciate the fact that contractors are the people that supply 
our members with jobs. And that is not the purpose of salting, 
that is not what we are all about. We support small business, 
and we support the efforts in this Congress to continue to 
support small businesses in this country.
    Mrs. Cloninger. May I comment on that?
    Mr. Udall. Well, not on my time. Maybe the Chairman will 
give you some time here.
    Mr. Newman, what would your response be to the argument 
that the Truth in Employment Act simply gives an employer a 
level of comfort that someone coming to work for them is truly 
motivated to be an employee?
    Mr. Newman. I would say that the Truth in Employment Act 
gives an employer a level of comfort that they can discriminate 
against people that exercise their rights under the National 
Labor Relations Act with impunity. That is what it does.
    Mr. Udall. Well, I have a little time. Go ahead.
    Mrs. Cloninger. I guess I would just like to comment on the 
fact that the union organizer who had targeted our company, it 
was reported back to us by other union electricians in the city 
of Helena that he would go around at his union meetings, and 
within the community, and say that his whole goal was to put 
Construction Electric out of business.
    Mr. Udall. Can you give us the name of that individual?
    Mrs. Cloninger. The union organizer?
    Mr. Udall. Yes, that you just said did that.
    Mrs. Cloninger. Yes. His name was Keith Allen.
    Mr. Udall. And, ma'am, all the incidents you are talking 
about ended up resulting in a finding that your company had 
broken the law, under the National Labor Relations Act, and you 
were fined for that, right?
    Mrs. Cloninger. That is correct.
    Mr. Udall. Sir, did the same thing happen to you?
    Mr. Krause. A similar situation occurred to us.
    Mr. Udall. First of all, was an investigation conducted by 
the National Labor Relations Act, and it was found that you 
were in violation of the law?
    Mr. Krause. No.
    Mr. Udall. No?
    Mr. Krause. We have not been found to be in violation with 
any of the laws relating to the NLRA.
    Mr. Udall. Was there a finding that there was something 
frivolous going on by anyone?
    Mr. Krause. Enough that the charge, nine of 11 charges were 
dismissed, yes.
    Mr. Udall. Mr. Mix, you mentioned this individual, Mr. 
Truckenbodt. Mr. Chairman, the individual isn't here, and we 
have been hearing stories bantered about him. I would like to 
submit some questions, specific questions to you, to find out 
for the record, and you put in the information of what all the 
circumstances were.
    Mr. Mix. I can do that for you, Congressman. Absolutely.
    Mr. Udall. And the gentleman that also talked about, I 
think it is only fair if we are going to talk about people that 
aren't here, that we get as full as possible a record about 
what actually happened in these circumstances. And I think we--
--
    Mr. Mix. Great idea. Yes, great idea.
    Mr. Udall[continuing]Thank you, Mr. Chairman.
    Chairman Akin. I think probably we have had a chance to let 
people get some testimony out.
    What I was going to do is just make a brief closing 
statement, which is a little broader than the overall subject 
even of the salting.
    And that is something that I have had a chance to run 
Committee hearings all over the country. And one of the things 
that we are very concerned about in America is a loss of jobs, 
and a loss of opportunities for our American citizens to find 
work.
    And while the economy is coming back and numbers look good 
and everything, yet at the same time there is an erosion, 
particularly in the manufacturing. I personally came out of the 
steel background myself, and saw what happened when the steel 
industry just fell out, and all those jobs went overseas.
    The position that I have now as a member now working for 
the government, and really working for the citizens of our 
country, is to take a look at things that increase the overall 
cost of doing business. Because a reason somebody moves jobs 
and plants overseas is money. It is as simple as that. It is 
money. It is not because they are anti-American, it is the 
money.
    And so my concern is that anything that adds to our 
competitive disadvantage in this country is something that is a 
high concern to me. And today, in this Committee, I am 
concerned about the fact that we have seen, in spite of the 
testimony that in theory this is supposed to be a good 
practice, what we are seeing is businesses are being shut down. 
And in fact, from our experience, businesses are being 
intimidated from even appearing before this Committee, and that 
is a grave concern to me.
    So that would be my closing comments. I recognize Mr. 
Udall.
    Mr. Udall. Thank you very much, Mr. Chairman. You and I 
both, I think, agree that we, as a country, are in a crisis 
situation in terms of jobs being lost overseas. And that part 
of it, as you have just said, has to do with the profit motive 
and being about money.
    I mean, one of the things that we could do that would make 
a real difference is examine our tax code. Because right now 
taxpayers pay for these companies to move the jobs over.
    We give them incentives. We actually encourage them to do 
it, through the tax code. And I think we ought to do a thorough 
examination, and say to companies, well, if you are going to do 
it, we are certainly not going to pay for it, and we are going 
to make it more difficult for you. Because we have lost far too 
many jobs in your state, in my state, and Representative 
DeMint's state I know, and in Representative Toomey's state of 
Pennsylvania, in these areas where there are good, high 
quality, high paying jobs. And I would like to see us focus on 
that, and other Committees in the Congress focus on it. And I 
look forward to working with you.
    Chairman Akin. Thank you. And I think that makes good 
sense. I think all of us don't want to reward people for moving 
jobs overseas, and we don't want to create any institutions 
that do that.
    I thank you all so much for coming in. I appreciate your 
testimony. And we will be adjourned.
    [Whereupon, at 12:09 p.m., the Subcommittee meeting was 
adjourned.]

[GRAPHIC] [TIFF OMITTED] T3197.063

[GRAPHIC] [TIFF OMITTED] T3197.064

[GRAPHIC] [TIFF OMITTED] T3197.065

[GRAPHIC] [TIFF OMITTED] T3197.066

[GRAPHIC] [TIFF OMITTED] T3197.067

[GRAPHIC] [TIFF OMITTED] T3197.068

[GRAPHIC] [TIFF OMITTED] T3197.006

[GRAPHIC] [TIFF OMITTED] T3197.007

[GRAPHIC] [TIFF OMITTED] T3197.008

[GRAPHIC] [TIFF OMITTED] T3197.009

[GRAPHIC] [TIFF OMITTED] T3197.010

[GRAPHIC] [TIFF OMITTED] T3197.011

[GRAPHIC] [TIFF OMITTED] T3197.012

[GRAPHIC] [TIFF OMITTED] T3197.013

[GRAPHIC] [TIFF OMITTED] T3197.014

[GRAPHIC] [TIFF OMITTED] T3197.015

[GRAPHIC] [TIFF OMITTED] T3197.016

[GRAPHIC] [TIFF OMITTED] T3197.017

[GRAPHIC] [TIFF OMITTED] T3197.018

[GRAPHIC] [TIFF OMITTED] T3197.019

[GRAPHIC] [TIFF OMITTED] T3197.020

[GRAPHIC] [TIFF OMITTED] T3197.021

[GRAPHIC] [TIFF OMITTED] T3197.022

[GRAPHIC] [TIFF OMITTED] T3197.039

[GRAPHIC] [TIFF OMITTED] T3197.040

[GRAPHIC] [TIFF OMITTED] T3197.041

[GRAPHIC] [TIFF OMITTED] T3197.042

[GRAPHIC] [TIFF OMITTED] T3197.043

[GRAPHIC] [TIFF OMITTED] T3197.044

[GRAPHIC] [TIFF OMITTED] T3197.045

[GRAPHIC] [TIFF OMITTED] T3197.046

[GRAPHIC] [TIFF OMITTED] T3197.047

[GRAPHIC] [TIFF OMITTED] T3197.048

[GRAPHIC] [TIFF OMITTED] T3197.049

[GRAPHIC] [TIFF OMITTED] T3197.050

[GRAPHIC] [TIFF OMITTED] T3197.051

[GRAPHIC] [TIFF OMITTED] T3197.052

[GRAPHIC] [TIFF OMITTED] T3197.053

[GRAPHIC] [TIFF OMITTED] T3197.054

[GRAPHIC] [TIFF OMITTED] T3197.055

[GRAPHIC] [TIFF OMITTED] T3197.056

[GRAPHIC] [TIFF OMITTED] T3197.057

[GRAPHIC] [TIFF OMITTED] T3197.058

[GRAPHIC] [TIFF OMITTED] T3197.059

[GRAPHIC] [TIFF OMITTED] T3197.060

[GRAPHIC] [TIFF OMITTED] T3197.061

[GRAPHIC] [TIFF OMITTED] T3197.062

[GRAPHIC] [TIFF OMITTED] T3197.036

[GRAPHIC] [TIFF OMITTED] T3197.037

[GRAPHIC] [TIFF OMITTED] T3197.038

[GRAPHIC] [TIFF OMITTED] T3197.023

[GRAPHIC] [TIFF OMITTED] T3197.024

[GRAPHIC] [TIFF OMITTED] T3197.025

[GRAPHIC] [TIFF OMITTED] T3197.026

[GRAPHIC] [TIFF OMITTED] T3197.027

[GRAPHIC] [TIFF OMITTED] T3197.028

[GRAPHIC] [TIFF OMITTED] T3197.029

[GRAPHIC] [TIFF OMITTED] T3197.030

[GRAPHIC] [TIFF OMITTED] T3197.031

[GRAPHIC] [TIFF OMITTED] T3197.032

[GRAPHIC] [TIFF OMITTED] T3197.033

[GRAPHIC] [TIFF OMITTED] T3197.034

[GRAPHIC] [TIFF OMITTED] T3197.035

      

                                 <all>

</pre></body></html>
